No. 21-57
LEVI FRASIER,

Petitioner,
v.
CHRISTOPHER EVANS ET. AL,

Respondent.

AFFIDAVIT
On this 13th day of August, 2021, I, Anthony G. Lantagne, hereby certify that
this BRIEF OF THE RUTHERFORD INSTITUTE AS AMICUS CURIAE IN SUPPORT
OF PETITIONER was sent this same day via Federal Express Next Day Delivery, to
the Supreme Court of the United States. I further certify that I have served by
First Class mail and email this same date the required copies to the parties listed
below:
Jeffrey L. Fisher
Stanford Law School Supreme Court Litigation Clinic
559 Nathan Abbott Way
Stanford, CA 94305-8610
jlfisher@law. stanford.edu
Wendy J. Shea
Denver City Attorney's Office
201 W. Colfax Avenue
Department 1108
Denver, CO 80202-5332
wendy. shea@denvergov .org
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 13th day of August, 2021.

Antho y .
gne
Lan
Legal Printing, Inc.
801 E. Main Street, Suite 100
Richmond, Virginia 23219
(804) 644-04 77
COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)
)

to-wit:

